                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

 Case Number: A13010002                                                          Page 1 of 1


         OIG was informed about concerns with a PI's letters of support in a recent
         proposal.l The letters appeared to have questionable characteristics. In one letter,
         the header of one was at the bottom suggesting it was altered, and another letter
             not appear                                    rese         was                 e
                                                2
         reviewed the PI's previous proposals and found the PI had included letters of
         support from several sources, 3 and some of them appeared reused.
         We contacted two of the authors of these letters for confirmation of their legitimacy.
         The first author's letters had minor differences in wording, so appeared unique. He
         confirmed each of the letters he had provided to the PI for his NSF proposals. The
         second author's letters were identical, thus having been reused multiple times, were
         undated, and appeared unrelated to the recent proposal. He confirmed he had
                                       as a                             rap          emp
         Because he was unable to locate his computer files, he was unable to confirm the
         date of his letter. Thus, there was no evidence to support an allegation of
         alteration, although we concluded the PI has repurposed her letter from the second
         author and reused it without his knowledge. Therefore, we wrote the PI telling her
         she should obtain current, dated, and related letters of support for each of her
         proposals. This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
